 U.S. Department of the Interior
 Office of Inspector General




           SURVEY REPORT


LEGAL SERVICES COSTS INCURRED BY THE
   CHEROKEE NATION OF OKLAHOMA


              REPORT NO. 99-E-70
                OCTOBER 1998
I
                                                                             C-SP-BIA-003-98-R

                  United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                         Washington, D.C. 20240




                                                                                 October 29, 1998
                                     SURVEY REPORT
    Memorandum

    To:        Assistant Secretary for Indian Affairs

    From:      Robert J. Williams                   C, c~..i i L-c?~L”~L
               Assistant Inspector

    Subject:   Survey Report on Legal Services Costs Incurred by the Cherokee Nation
               of Oklahoma (No. 99-E-70)

                                     INTRODUCTION
    This report presents the results of our survey of legal services costs incurred by the Cherokee
    Nation of Oklahoma. The objectives of the survey were to (1) determine whether the
    Cherokee Nation acquired and paid for legal services in accordance with applicable laws,
    regulations, and policies and (2) identify the source of funds used to pay for the legal
    services. We conducted the survey in response to a Congressional request.

    BACKGROUND

    In fiscal year 1996, the Cherokee Nation received revenues of approximately $13 1 million,
    consisting of $88 million primarily from Federal, state, and private grant and contract
    sources and about $43 million from the Nation’s business operations. Within the
    $88 million, the Nation received approximately $64.5 million from the Federal Governrnent,
    including $8.6 million awarded by the Department of the Interior under a self-governance
    compact, of which the Nation expended approximately $6.4 million. At the time of our
    audit, the Nation had not prepared financial statements for fiscal years 1997 and 1998;
    therefore, we were unable to determine the funding sources and total dollar amounts of
    receipts and expenditures for those years. However, according to records provided by the
    Office of Self Governance, Department of the Interior, the Nation was awarded
    approximately $15 million under its fiscal year 1997 annual funding agreement and has
    received about $8.9 million under its fiscal year 1998 annual funding agreement as of
    September 3, 1998. The agreements were executed pursuant to the Nation’s Self-
    Governance Compact with the Department.
I



    The 1994 amendments (Public Law 100-413) to the Indian Self-Determination and
    Education Assistance Act (Public Law 93-638) permanently established the self-governance
    program for Indian tribes. Under self-governance funding agreements, tribes are authorized
    to plan, conduct, redesign, and administer programs, services, functions, and activities that
    meet the needs of the individual tribal communities, including control over funding and
    decision making for Federal programs. On October 1, 1990, the Cherokee Nation entered
    into a compact agreement with the Secretary of the Interior to participate in self-governance
    and agreed to abide by all existing Federal standards in carrying out the programs, services,
    and functions under the self-governance compact. Also, the Bureau of Indian Affairs, on
    February 12,1998, published draft rules and regulations for tribal self-governance programs
    that require the tribes to maintain management systems and practices at least comparable to
    those in existence when the tribe entered the self-governance program.

    SCOPE OF SURVEY

    Our survey was conducted in accordance with the “Government Auditing Standards,” issued
    by the Comptroller General of the United States. Accordingly, we included such tests of
    records and other auditing procedures that were considered necessary under the
    circumstances. To accomplish our objectives, we obtained and reviewed applicable criteria
    related to the procurement and payment of legal services, reviewed and discussed financial
    controls over these functions with Nation officials, and selected and reviewed samples of
    legal services payments and Federal program funds transfers.

    Of 335 legal services transactions, totaling $1.3 million, recorded in the Nation’s general
    ledger system during the period of October 1995 through February 1998, we judgrnentally
    selected a sample of 89 (27 percent) transactions, totaling $1 million (77 percent). We
    sampled legal services transactions equal to or greater than $1,000 and all expenditures
    identified for three legal services vendors. We also judgmentally selected from159 Bureau
    program interfund transfers, totaling $35.5 million, a sample of 21 (13 percent) transfers,
    totaling $11.5 million (32 percent), which varied in amounts from $63,000 to $800,000. The
    interfund transfers were from special revenue accounts (used to account for restricted funds
    such as Bureau grants) to the Nation’s general operating fund and motor fuel tax accounts
    (used to account for Nation revenues) and occurred during the period of October 1996
    through February 1998.

    As part of our review, we evaluated the Nation’s system of internal controls over the
    (1) procurement of and payment for legal services and (2) transfer of Federal program funds
    from special revenue accounts to the general fund and motor fuel tax accounts to the extent
    we considered necessary. The internal control weaknesses identified are discussed in the
    Results of Survey section of this report. If implemented, the recommendations should
    improve the internal controls.

    Our survey was performed from March 3 1 to September 3, 1998, and included visits to the
    Headquarters of the Cherokee Nation, in Tahlequah, Oklahoma, and the office of the
    Nation’s independent accountant, in Oklahoma City, Oklahoma, in April and May 1998.

                                                 2
I



      PRIOR AUDIT COVERAGE

       During the past 5 years, neither the Office of Inspector General nor the General Accounting
    I Office has performed any audits that specifically addressed the Cherokee Nation’s
       procurement of and payment for legal services.

      However, on June 27, 1997, an independent accounting firm issued the report entitled
      “Cherokee Nation Single Audit Reports and Supplementary Schedules for the Year Ended
      September 30,1996.” The report stated that the Nation’s financial management information
      system was considered a material weakness and was not capable of producing timely interim
      and/or year-end financial information, which significantly impacted Tribal management’s
      ability to prepare reliable financial reports and make informed financial decisions. In
      addition, the report stated that the Nation processed Self-Governance-related procurement
      actions greater than $1,000 in a noncompetitive manner and did not have current general and
      cash management accounting policies and procedures. Further, the report stated that
      “significant uncertainty and disagreement exists regarding interpretation and application of
      the Nation’s tribal budget approval and implementation process, with the primary issue
      involving whether or not budgeted expenditures are approved by the Tribal Council at a
      global level, or at a more detailed level such as by fund type, department, or specific line
      item.” The independent accounting firm recommended that the Nation determine whether
      its new accounting software’ was appropriate for the Nation, assess the proposed plan to
      complete the implementation of the accounting software, designate an internal full-time
      project manager to manage the implementation project, and utilize an external resource to
      monitor project implementation. In addition, the independent accounting firm recommended
      that the Nation (1) consistently follow policies regarding competitive bidding and any grant
      or other funding source requirements and (2) update and maintain current accounting policies
      and procedures to assist Nation personnel in the day-to-day use of the new accounting
      system. Further, the independent accounting firm recommended that the Nation develop and
      embark on a specific strategy to address and resolve the uncertainties and disagreements,
      including approving amendments to existing laws that would clarify the Nation’s budgetary
      laws.

      In addition, at the request of the Tribal Council, an independent accounting firm issued, on
      September 30,1997, the report entitled “Report on Applying Agreed-Upon Procedures.” The
      report stated that the Nation (1) entered into contracts without any requirement for prior or
      subsequent notification of the Tribal Council; (2) had made payments for legal services
      without having appropriate supporting invoices, without staying within the terms of the
      contract, and sometimes when no written contract had been executed; (3) was unable to
      produce a year-to-date trial balance report (a listing of assets, liabilities, equity, revenues, and


      ‘In 1994, the Cherokee Nation acquired a new financial accounting software package to update its accounting
      system and related processes to ensure the timely and accurate preparation of fmancial statements and
      management reports. However, as of January 15, 1998, the Nation’s independent accounting firm stated that
      the new software package was “still not functional” and that “there may even be concerns as to the fitness” of
      the new software package to meet the Nation’s financial and accounting needs.

                                                           3
I



    expenses for financial statement preparation) for fiscal years 1996 or 1997; (4) recorded
    expenditures to Federal programs that were not in compliance with Office of Management
    and Budget Circular A-87, “Cost Principles for State, Local, and Indian Tribal
    Governments”; (5) recorded expenditures without having an established appropriation/budget
    code; (6) had not established Federal program funds transfer procedures; and (7) had not
    updated the Nation’s general accounting policies and procedures since 1985. The
    independent accounting firm recommended that the Nation (1) develop a policy to require
    the Executive Branch to present to the Tribal Council all proposed contracts for concurrence
    prior to their execution, (2) develop a policy to ensure that all invoices are read before they
    are paid to determine whether a contract has been put in place and that the payment due was
    for agreed-to services and within dollar limitations in accordance with the terms of the
    contract, (3) determine the actions needed to enable timely production of a current trial
    balance, (4) develop policies and procedures to ensure compliance with Federal and state
    requirements, (5) clarify the role of the Tribal Council in approving budgets, (6) establish a
    consistent means of measuring compliance with established budgets and perform regular
    budget versus actual expenditure analyses for each program, and (7) develop an updated
    policies and procedures manual and ensure that internal controls are adequately developed
    and implemented as soon as possible.

    Based on the two prior audit reports, the Nation instituted a number of actions to improve
    its financial management. In an August 13’1998, memorandum to our office, the Nation’s
    Executive Director of Finance and Administration stated:

            The Cherokee Nation Executive Branch and the Cherokee Nation Legislative
            Branch are strongly committed to strengthening and maintaining an efficient,
            effective financial system. Evidence of this commitment is the development
            and implementation of a Financial Improvement Plan . . . and the
            appropriation of $2,000,000 for the project. The Nation’s financial
            department and the contractor for the project . . . have the project well
            underway and expect successful completion.

           The Financial Improvement Plan, not only includes the complete and correct
           installation of the American Fundware Accounting system, correct
           organization of 97 data for audit and organization of 98 data (to date) and
           proper staffing of the Accounting Department. Proper staffing and a fully
           functioning Accounting System will provide for efficient control,
           maintenance, reconciliation and reporting of bank accounts.

                                 RESULTS OF SURVEY
    We found that the Cherokee Nation of Oklahoma did not acquire and pay for legal services
    in accordance with applicable laws, regulations, and policies. Specifically, the Nation
    incurred costs for legal services without formal contracts, without adequate support for costs
    billed, outside the purview of contract terms and conditions (when contracts had been
    prepared), and in excess of Tribal Council-approved appropriations. We also found that the

                                                  4
Nation incorrectly used Federal funds from the Department of the Interior to pay for
litigation against the Federal Government, transferred Federal funds to the Nation’s general
operating fund and motor fuel tax accounts without ensuring that the Federal funds were
needed to pay for expenditures under the Federal programs, and inaccurately prepared a
Financial Status Report* before it was submitted to the Bureau of Indian Affairs. However,
we could not determine the source of funds used to pay for all legal services because when
Federal funds were transferred to the general operating fund, they were commingled with the
Nation’s general funds and lost their identity as Federal funds. The requirements for the use
of and the accounting for Nation and Federal funds are contained in the Nation’s Code and
implementing regulations and procedures, the Indian Self-Determination Act Amendments
of 1994, the annual funding agreements, and Office of Management and Budget circulars.3
However, the Nation’s Executive officials had not developed and implemented an adequate
financial management inforrnation system to ensure compliance with established regulations
regarding legal services, adequate identification of Federal program expenditures and
amounts owed, and accuracy and completeness of Federal program financial reports. As a
result, the Nation (1) did not have assurance that legal services incurred were reasonable and
necessary, (2) improperly charged $88,000 to the Department of the Interior for legal
services, (3) transferred Federal funds of at least $16.1 million to the general operating fund
without assurance that Federal program expenditures had previously been incurred and were
owed, and (4) included inaccurate financial data in the Financial Status Report submitted to
the Bureau.

Legal Services Payments

We found that the Cherokee Nation incurred and paid for legal services without contracts,
without adequate supporting documentation, outside of contract terms and conditions, and
in excess of Tribal Council-approved appropriations. This occurred because the Nation’s
Executive officials did not have effective internal controls to ensure compliance with
established regulations for incurring and paying legal services, as described in the examples
that follow.

         Payments Without Contracts. The Nation paid 35 legal services invoices, totaling
$79 1,000, without having contracts. The Nation’s Employment Policy Manual (Chapter II,
Subsection H) requires that (1) a draft (legal services) contract accompanied by a written
justification be prepared before contractor (attorney) services are acquired and (2) all
contractor agreements be approved in advance by the appropriate Executive Director and
Contract Manager. For Federal funds, the Code of Federal Regulations (43 CFR 12.60(b)(6))


*The Code of Federal Regulations (43 CFR 12.952) specifies the forms that are authorized for obtaining
fmancial information from recipients, including the Financial Status Report.

3The Nation’s Manual “Administrative Policies of the Executive Branch” (Chapter 7, Section B) states that
when using Federal funds, the Nation is to follow Office of Management and Budget Circular A- 102, “Uniform
Administrative Requirements for Grants-in-Aid to State and Local Governments” (codified in the Code of
Federal Regulations (43 CFR 12)), Office of Management and Budget Circular A-87, and any subsequent
revisions to these circulars.

                                                    5
I



    requires that accounting records (including payment transactions) be supported by source
    documentation, such as contract award documents. However, in one instance noted, the
    Nation paid 14 invoices, totaling $622,000, for various legal services provided by one legal
    firm from September 4, 1996 through July 3 1, 1997, for which there was no contract.
    According to the invoices, the legal services related to (1) the Nation’s Delaware and
    Arkansas Riverbed litigations;4 (2) navigational servitude; (3) compound interest recovery
    from the Government; (4) meetings with Congressional, Department of the Interior, and
    Department of Labor officials; and (5) review of the Cherokee Nation Marshal’s search
    warrant.

    For these 14 invoices, the Nation did provide us with a September 5, 1996, letter from the
    firm which stated “The District of Columbia Code of Professional Responsibility requires
    us to put in writing our billing practices regarding the work we will be doing for the
    Cherokee Nation.” In that regard, the letter stated that the firm would issue bills monthly,
    listed the billing rates for three representatives of the firm, and specified that the firm would
    also bill for expenses. However, we found that the letter did not identify the scope of work,
    the period of performance, or the cost of services and was not signed by a representative of
    the Nation. Regarding payments of six of these invoices, the Nation’s former Controller, in
    a September 26, 1997, letter to the former Secretary/Treasurer, stated:

              I need your written authorization to release the checks since the
              documentation is inadequate. In addition, the request for production of
              documents from KPMG [an independent public accounting firm] covered
              this law firm. The Cherokee Nation has indicated to the Tribal Council
              that no contract was available for this firm.

    On September 15,1997, the Nation’s Principal Chief signed a contract which stated, in part,
    “This contract, which memorializes the arrangement under which [the firm] previously has
    performed services for the Cherokee Nation, may be terminated at will by either party.” The
    independent public accounting firm issued its “Report on Applying Agree-Upon Procedures”
    on September 30, 1997, which reported that the Nation did not provide a contract for
    payments to this firm.

    We believe that the Nation should not have paid invoices without having a contract that
    specified the services contracted for.

             Payments Without Adequate Supporting Documentation. The Nation paid
    26 invoices for legal services totaling $269,000 that did not have adequate information to
    verify the specific nature of the legal services received, the hours billed, and the hourly rates
    charged. For example:


    4 The Cherokee Nation is involved in at least two lawsuits (Arkansas Riverbed and Delaware Tribe) against
    the Federal Government. The Arkansas Riverbed suit involves disputed ownership of the Riverbed, and the
    Delaware Tribe suit involves the Cherokee Nation’s opposition to Bureau of Indian Affairs approval of the
    Delaware Tribe’s separation from the Cherokee Nation.

                                                       6
       - The Nation made a $27,000 payment on a legal services invoice that did not provide
the number of hours worked by the legal firm in relation to the services provided.

        -The Nation made a $2,800 payment on a legal services invoice that did not provide
the number of hours worked or the hourly billing rate charged by the legal firm in relation
to the services provided.

The Nation’s “Operational Policies,” No. 86-180, states that documentation for check
requests are to consist of original invoices, including an itemized description and price of
goods or services invoiced and a total invoice amount. In addition, the “Policies” states that
“non-itemized statements do not constitute proper invoices.” Further, sound business
practices dictate that vendor invoices be sufficiently detailed to allow for a review for
appropriateness, accuracy, and completeness to ensure that they are in compliance with the
underlying agreement authorizing the expenditure or disbursement of funds. A Nation’s
accounts payable official stated, “It is not the Nation’s normal procedure to pay invoices
which lack adequate documentation and/or detail; however, invoices that are signed
[approved] by Executive Office officials are automatically processed for payment [by
accounts payable], without any further questions.”

        Payments Outside Contract Terms and Conditions. The Nation paid 15 invoices
for legal services totaling $43,932 that were in excess of the agreed-to billing rates. The
Code of Federal Regulations (43 CFR 12.76 (b)(2)) requires recipients of Federal assistance
to ensure that their vendors perform in accordance with the terms, conditions, and
specifications of their agreements. However, we found the following:

         - For 14 invoices, the Nation incurred costs of $14,775 that were in excess of billing
rates for legal services. In this instance, the billed hourly rate of $325 was $25 per hour more
than the contract rate of $300. A Nation official stated that the payments were made
“because the billing documents had been approved by various Executive officials.” In its
October 2, 1998, response to the draft audit report, the Nation included a November 26,
1997, letter from the firm which stated:

         On September 15, 1997, at the Nation’s request, we entered into a formal
         contract with the Nation as to our representation. This contract, which
         was intended to memorialize the billing arrangement established by the
         retainer letter . . . listed the rates we would charge. By inadvertence, my
         rate was listed as $300 instead of $325. . . . The only bills for services
         rendered after signing the contract were bills sent you on October 27,
         1997, for September 1997. These bills have not yet been paid. The last
         bills paid were for services rendered through July 1997. Although listing
         my rate as $300 in the September 15 contract was a mistake, we will
         honor that rate at least until the end of the year because it was our error.
         Thus the September bills will be revised accordingly.



                                               7
We believe that the Nation should have ensured that the rate billed was in accordance with
the rate specified in the contract.

        - For one invoice, the Nation incurred costs of $29,158 that were in excess of legal
services costs billed by the Nation’s Office of General Counsel. We found that the payment
should not have been made because the attorney/payee had not fulfilled the retainer
agreement’s minimum days worked clause. A Nation accounts payable official stated that
the payment was made “because the billing document had been approved by the former Chief
of Staff.” This example was also addressed in the independent accounting fir-r-n’s “Report
on Applying Agreed-Upon Procedures” (see Prior Audit Coverage).

         Legal Services in Excess of Appropriations. The Nation incurred legal services
costs of $491,000 in excess of Tribal Council-approved appropriations. The Cherokee Nation
Code Annotated (Title 62, Chapter 4, “Appropriations”) requires that the (1) Executive and
Finance Committee, upon direction of the Secretary-Treasurer and with advice from the
Controller, propose amendments to the annual appropriations law based on material changes
in real or estimated expenditures that affect the total amount budgeted and (2) amendments
be presented to the full Tribal Council for consideration and passage. For example:

        - The Tribal Council appropriated a total of $300,000 for the Nation’s Delaware
Separation litigation. However, we found that costs of $539,000 had been charged against
the appropriation and that the excess legal services costs of $239,000 had been incurred
without Tribal Council approval. In addition, we determined that $272,000 of the $539,000
was incurred for legal services unrelated to the Delaware Separation litigation, such as issues
related to Department of Labor hearings, the Arkansas Riverbed litigation, the establishment
of the Arkansas River Port as a means to create Cherokee Nation business income, and the
Marshal’s search warrant.

        - The Tribal Council appropriated a total of $67,000 for the Law and Justice
Department’s general ($33,500) and indirect ($33,500) legal services costs categories.
However, we found that general costs of $146,135 and indirect costs of $84,412 had been
charged to the Department’s costs categories. As a result, the general costs exceeded the
Tribal Council’s appropriation by $112,635, and indirect costs exceeded appropriations by
$50,912. In addition, we determined that the Law and Justice Department exceeded its
overall appropriation for all costs categories by $117,000.

Because Nation Executive officials did not comply with the tribal appropriation
requirements, cost appropriations were exceeded. For example, in a memorandum dated
November 7, 1996, a Nation’s Law and Justice Department attorney stated, “I cannot sign
this check request (for payment), nor can I recommend approval of the check request by
anyone else, because, in my opinion it is not covered by the Continuing Resolution
authorizing funding at 100% of the fiscal year 1996 budget (funding) level.” The
memorandum was in response to the Chief Financial Officer’s directive to process a check
request for payment of Delaware separation litigation legal services. In addition, the attorney
stated, “Perhaps we should propose a legislative act to appropriate funds for the Delaware


                                              8
I



    litigation and then present it to the full Council.” However, the Chief Financial Officer and
    the Principal Chief approved the check request without the attorney’s approval, and the
    check request was processed for payment on December 20, 1996. Further, we found that
    differences existed between the Executive office and the Tribal Council as to whether
    budgeted expenditures are approved at the program or the line item level. For example,
    Executive officials stated, “It has never been the practice for the Tribal Council to approve
    budgets at the line item level.” However, a Tribal Council official stated, “When the Tribal
    Council approves the budget, the Council is approving each budgeted line item and program
    managers/personnel are responsible for managing the programs within the approved line item
    amount.” This issue was also addressed in the June 1997 report issued by an independent
    accounting firm (see Prior Audit Coverage).

            Program Funds Used for Litigation Against the Federal Government. The
    Cherokee Nation improperly charged the Department of the Interior for legal services of
    $8 8,000 related to the Nation’s Arkansas Riverbed litigation against the Federal
    Government. The legal services had not been provided for in the Annual Funding Agreement
    (No. 0SGT905) for Self-Governance, dated July 14,1995, or included in the Nation’s Tribal
    Council-approved budget for expenditure from Self-Governance Oversight Program funds
    provided by the Bureau of Indian Affairs. In addition, we found that the Nation incurred the
    legal services without a contract. Office of Management and Budget Circular A-87 states
    that Federal program funds cannot be used for prosecution of claims against the Federal
    Government. The Nation’s Chief Financial Officer stated that even though the Arkansas
    Riverbed litigation legal services “had not been previously included in the Nation’s
    Self-Governance Oversight program budget and had been incurred” prior to her tenure, she
    “decided to charge the costs to the self-governance program because it was necessary to find
    funds to pay for the legal services.”

    Transfers of Federal Program Funds

    The Code of Federal Regulations (43 CFR 12.60(a)(2) and (b)(3)) requires that the fiscal
    control and accounting procedures of a tribal organization be sufficient to (1) permit the
    tracing of Federal program funds to a level of expenditure adequate to establish that they
    have not been used in violation of any restrictions or prohibitions contained in any statute
    that applies to the Federal assistance and (2) ensure that funds are used solely for authorized
    purposes. In addition, a February 4, 1998, memorandum from the Associate Solicitor,
    Division of Indian Affairs, to the Acting Inspector General stated, “Federal funds provided
    under Tribal Self-governance compacts and annual funding agreements are only available
    for programs previously administered by the Department of the Interior or for programs
    specifically authorized by Federal statute (not tribal programs).” However, we found that
    the Nation processed all payments through its general operating fund, including payments
    for Federal program fund expenditures. We also determined that the Nation’s accounting
    data resided on two accounting systems because accounting data needed for the creation of
    a receivable, or due from operations, was on the old system and the data for a payable, or due
    to operations, was on the new system. We also found that Federal program funds were
    transferred to the Nation’s general operating fund and motor fuel tax accounts without

                                                  9
I



    assurance that Federal program expenditures had been incurred and were owed. Transfers
    of Federal funds to the general operating fund should be made to reimburse the general fund
    for expenditures for Federal programs. These deficiencies occurred because the Nation
    (1) had not developed and implemented an adequate financial management information
    system to ensure that transfers occurred only when expenditures were incurred and owed by
    Federal programs and (2) used Federal program funds to cover the Nation’s general operating
    fund cash deficit position. As a result, we identified 10 transfers of Departmental program
    funds, totaling $5.6 million, and 7 transfers of other Federal program funds, totaling
    $10.5 million, that were not fully supported by Federal program expenditures. The
    10 transfers of Departmental program funds occurred at a time when the Nation’s general
    operating fund was in a deficit cash position. For example:

            - On March 17, 1997, the Nation’s general operating fund showed a $1.2 million
    cash deficit. A Nation accounting official stated, “The former Accounting Director directed
    that Department of the Interior program funds totaling $500,000 and Department of Health
    and Human Services program funds totaling $500,000 be transferred to offset the general
    operating fund account’s deficit cash position.”

            - On October 9,1997, the Nation’s Chief Financial Officer notified the Chairman,
    Tribal Council Executive and Finance, that the Nation had a $2.3 million general operating
    fund cash deficit and said that it occurred because of late reimbursement of project costs by
    the Bureau of Indian Affairs. The Nation received the $2.3 million from the Bureau on
    October 6, 1997, and on October 9, 1997, transferred that amount to the general operating
    fund account. However, at the time of the transfer, the Nation’s financial management
    information system showed that program expenditures of only $1.45 million had been
    incurred and were owed, which resulted in the transfer ofFederal program funds of $850,000
    in excess of supported expenditures.

             - On November 19,1997, the Nation received program funds of $1,064,837 from
    the Bureau of Indian Affairs. On November 21, 1997, the Nation’s former Controller
    directed that this amount be transferred to the Nation’s motor fuel tax account. However,
    at the time of the transfer, the Nation’s financial management information system showed
    that program expenditures of only $256,351 had been incurred and were owed, which
    resulted in the transfer of Federal program funds of $808,485 in excess of supported
    expenditures.

    During our review of the Nation’s reconciliations of the Federal program’s expenditures and
    amounts owed, we found that in a May 12, 1997, reconciliation, Indian Health Services
    program funds of $84 1,000 had been transferred in excess of expenditures incurred and owed
    and that in an August 8,1997, reconciliation, Indian Health Services funds of $9 million and
    Bureau of Indian Affairs funds of $937,000 had been transferred in excess of expenditures
    incurred and owed.




                                                 10
Federal Status and Cash Report

The Code of Federal Regulations (43 CFR 12.60(b)( 1)) requires recipients of Federal
assistance to maintain accounting systems sufficient to permit the preparation of accurate,
current, and complete financial reports. According to a Nation official, the Nation annually
submits to the Bureau of Indian Affairs a financial status report for its Tribal transportation
planning contract. Transportation funds are provided to the Nation as part of the
self-governance compact. The report provides data on receipts and expenditures and on cash,
receivable, and payable balances. However, we found that the Nation did not correctly
prepare and adequately review the report it submitted to the Bureau on March 6, 1998.
Specifically, the Nation reported (1) a deficit cash balance of $1.1 million that was not
accurate and (2) an accounts receivable of $987,289 as an accounts payable. According to
a Nation official, the errors occurred because accounting transactions were inaccurately
recorded in the financial management information system, financial information that was
3 l/2 months old (November 1997) was reported for March 1998, and personnel who
prepared the report were not familiar with the reporting process.

Financial Management Actions

We recognize that the Nation is taking actions to resolve its previously identified accounting
deficiencies and are aware that it has contracted with an independent public accounting firm
to reconstruct the Nation’s financial accounting records for fiscal year 1997 to allow the
preparation of required auditable financial statements. However, we found that many of the
conditions identified in audits conducted by the two independent accounting firms (see Prior
Audit Coverage section) still existed. Specifically, the Nation had not fully implemented a
financial management information system that (1) provides accurate, current, and complete
reporting and disclosure of financial activities; (2) maintains records which adequately
identify the source and application of funds provided for activities; (3) maintains effective
control and accountability for all Federal program funds; and (4) compares actual
expenditures with budgeted amounts for each program. (The August 13 memorandum to our
office stated that the Financial Management Improvement Plan is “approximately 80%
complete.“) In addition, we determined that certain Nation officials did not comply with
established budget, procurement, and payment procedures.

The independent public accounting firm has been contracted to perform various procedures
outlined in a Financial Management Improvement Plan (which includes measurable
performance dates and responsible officials) dated January 15, 1998, to allow the
implementation of a single accounting system that will produce timely and accurate financial
accounting and management reports. We believe that until the plan is fully implemented and
a new accounting system which meets all applicable requirements is operating as designed,
the Office of Self-Governance should take appropriate actions to ensure that Department of
the Interior funds are used only for authorized purposes. In addition, we believe that the
Nation’s Executive officials need to foster an environment that stresses the importance of
following internal controls to help ensure that controls are operating as designed and should
hold individuals accountable who do not comply with established controls.

                                              11
Recommendations

We recommend that the Assistant Secretary for Indian Affairs ensure that the Director of the
Office of Self-Governance:

        1. Requires the Cherokee Nation to provide assurance that policies and procedures
have been implemented to ensure that legal services expenditures are not incurred or paid
without having an approved contract, are not paid without adequate supporting
documentation, are paid within the terms of established contracts, and do not exceed Tribal
Council-approved appropriations and that Federal program funds are used only for supported
expenditures incurred in accordance with approved funding agreements or as otherwise
authorized by legislation.

        2. Requires the Nation to submit audited financial statements for fiscal year 1997
which accurately present the source and use of all Federal funds received by the Nation
during that year.

         3. Requires the Nation to submit interim financial reports which account for the use
(including amounts held in qualifying deposits or investments) of all Self-Governance funds
received from the Department of the Interior in fiscal year 1998.

       4. Requires the Nation to repay to the Department of the Interior any Departmental
funds spent for purposes other than those authorized by the terms of the applicable funding
agreements.

        5. Requires the Nation to present a report from its auditing firm stating that a new
accounting system, meeting all applicable requirements for control of Federal funds, has
been installed, is functioning properly, and produces accurate and timely financial status
reports and that the Nation has implemented an adequate system of internal controls.

       6. Considers deferring action on the fiscal year 1999 annual funding agreement with
the Nation or taking other actions to ensure that Departmental funds are used only for
authorized purposes until the Nation complies with Recommendations 1 through 5.

Assistant Secretary for Indian Affairs Response and Office of Inspector
General Reply

The September 30, 1998, response (Appendix 2) to the draft report from the Assistant
Secretary for Indian Affairs described actions taken by the Office of Self-Governance and
by the Nation to address the report’s six recommendations. Based on the response, we
consider Recommendation 1 resolved and implemented and Recommendations 2 through 6
resolved but not implemented. Accordingly, the unimplemented recommendations will be
referred to the Assistant Secretary for Policy Management and Budget for tracking of
implementation (see Appendix 4).

                                             12
I




    Cherokee Nation Response and Office of Inspector General Reply

    On October 2, 1998, the Principal Chief of the Cherokee Nation submitted a response
    (Appendix 3) to the draft audit report that described actions taken by the Nation to address
    the report’s findings and recommendations, commented on the conditions described in the
    report, and included separate remarks from three members of the Tribal Council of the
    Cherokee Nation.

    Because five of the report’s six recommendations will be resolved through terms included
    in the Nation’s self-governance funding agreement for fiscal year 1999, we included only the
    response from the Principal Chief of the Cherokee Nation in this report because the Principal
    Chief is “authorized to apply for any grant to facilitate a self-governance funding agreement”
    by the Tribal Council (Resolution No. 21-90). As such, we did not include the individual
    comments from three Tribal Council members that were provided with the Principal Chiefs
    response or the separate comments from two other Tribal Council members that were sent
    directly to our office. The Nation’s comments and our replies are presented in the
    paragraphs that follow.

    Legal Services Payments

            Nation Response. The Nation stated that it “developed and implemented an Interim
    Policy and Procedure for Attorney Contracts on June 5,1998.” According to the Nation, the
    Policy and Procedures provide for documenting requests for attorney services, establishing
    budgets, obtaining required approvals, justifying attorney selection, and managing contract
    performance and payments and state:

             Minimum items to be addressed in the                 contract - Parties’
             names/addresses; billable rates; length of duration for the contract; total
             amount of contract not to exceed; Contact Person for the Nation; scope of
             work and duties to be performed; reports to be submitted to the Nation;
             detailed invoices required for payment; Assurances of Good Professional
             Standing; Professional Liability Insurance; amendment clause; termination
             or cancellation provision; any other standard clauses the Law & Justice
             Department may recommend; and signature of both parties.

             Office of Inspector General Reply. We believe that implementation of the Policy
    and Procedures by the Nation should help ensure that attorney contracts are adequately
    justified, properly approved and awarded, and adequately administered.

            Nation Response. Regarding the 14 legal services invoices of $622,000 which our
    report (page 6) states were paid without a contract, the Nation stated that it “did have a letter
    of engagement . . . under which the firm was paid for their services until a contract was
    executed.” Regarding our finding (page 7) that the Nation paid $14,775 in excess of agreed-
    to hourly rates for these same 14 invoices, the Nation stated:

                                                   13
         A letter from the subject legal firm . . . clarifies that the rate appearing in
         the contract should have been $325 per hour, not $300 per hour, and that
         it was billed at $325 per hour by the firm. The letter goes further to state
         that the $300 per hour rate was included in the contract by mistake. The
         firm agreed in this letter that the rate of $300 would be honored by their
         firm, since it was a mistake, and that future billing would be adjusted as
         a result. The letter also describes significant reductions in fees made by
         the firm over the term of the contract.

        Office of Inspector General Reply. During our audit, we reviewed a copy of the
September 5, 1996, letter of engagement. The letter presents the billing rates for three
representatives of the firm and states that the representatives also will bill for their expenses.
However, the letter does not identify the services to be performed or the deliverables, the
period of performance, or the total amount to be paid by the Nation. In addition, the letter
was not signed by a representative of the Nation. Lacking this information, the letter of
engagement does not meet the Nation’s requirements (Chapter II, Subsection H, of the
Employment Policy Manual) for contracting for attorney services. The Nation established
a formal contract for these services on September 15,1997, after the independent accounting
firm conducting the agreed-upon procedures review (see Prior Audit Coverage) requested
a copy of the contract. The contract was made retroactive to September 1996.

Regarding the payments in excess of billing rates, we compared the billing rate in the
invoices with the billing rate in the contract and noted that the rate in the invoices was $25
per hour higher than the rate in the contract. Based on the hours billed, we identified
payments of $14,775 in excess of contract billing rates. According to a November 26,1997,
letter from the legal firm cited in the Nation’s response, bills “will be revised” on the basis
of the $300 rate.

We used these and other examples in the report to demonstrate that the Nation did not
comply with its requirements for the award and payment of attorney contracts. By not
complying with its requirements, the Nation did not have assurance that its purchases were
economical and efficient and adequately justified and approved. However, based on the
Nation’s response, we have modified our report to include further information about the
contracting for and payment of these 14 invoices.

        Nation Response. The Nation stated that for the questioned costs of $88,000, it
“agrees to set aside the funding from the General Fund, adjust the expenditure to the
General Fund and refund the amount to the Cherokee DO1 [Department of the
Interior] Self-Governance fund.” The Nation also stated that a representative from its Law
& Justice Department would contact the Office of Inspector General to “conduct the requisite
research to enable the Nation to ascertain whether there is concurrence with that
determination.”




                                               14
I



            Office of Inspector General Reply. On September 25, 1998, we provided copies
    of Cherokee Nation Request for Checks and related documents pertaining to the $88,000 to
    an attorney with the Nation’s Law & Justice Department.

    Transfers of Federal Program Funds

            Nation Response. Regarding the transfers of Federal Program Funds, the Nation
    stated that it “concurs with the transfers and the amounts listed for each of the transactions
    on page 9.” The Nation further stated:

             However, the OIG [Office of Inspector General] Draft Survey Report is
             not reflective of supplemental information provided by the Nation on
             July 24, 1998 addressing each of these transactions. While we
             acknowledge that in some cases the amount transferred did not exactly
             match the amount of expenditures attributable to the DO1 [Department of
             the Interior] self-governance compact, irt all cases the amounts were
             reconciled and subsequent transfers to the General Fund were adjusted
             as necessary so that the total reimbursementfor the year equal the amount
             of DO&eligible expenditures.

    The Nation also stated that it was “not an unusual situation” for each of the transfers to occur
    when the Nation’s general fund was in a deficit cash situation. In that regard, the Nation said
    that its Director of Accounting explained that “program draw downs, because they are a
    reimbursement to the general fund, were constantly deposited into an account that is void of
    cash.” The Nation also stated that it “no longer incurs a deficit in the general fund.”

             Office of Inspector General Reply. As noted by the Nation, our report accurately
    represents the transfers of Federal program funds to the general fund at the time of our
    review in March 1998. In addition, because the Nation stated in its supplemental information
    that “poor integrity of financial information” will exist within its financial system until its
    financial management improvement project is completed, which includes the production of
    financial statements for fiscal year 1997 and completion of the 1997 single audit, we did not
    make any adjustments to our report based on the supplemental information. However, we
    did review the supplemental information. While we did not include all of this supplemental
    information in this report, we have excerpted pertinent information, which we have
    responded to as follows:

            - Regarding a transfer that resulted in a $539,821 overpayment to the general fund
    (not used as an example in the report), the Nation stated, “There were other programs in the
    compact that were overpaid, but they were disregarded, because the report used to calculate
    the transfer did not include program fringe expenditures of $82,596.75.” The Nation also
    stated that during fiscal year 1997, fringe benefits were not recorded as a receivable to the
    general fund. Therefore, according to the response, the accounting records did not reflect at
    the time of the transfer that an additional $82,596 had been incurred under the compact.



                                                  15
I



    However, we noted that even if the $82,596 had been properly recorded, the general fund
    would have been overpaid $457,225 ($539,821 minus $82,596).

            - The Nation stated, “To date, some $1.8 million in fringe expense has not been
    reimbursed to the General fund from DO1 [Department of the Interior] sponsored programs.”
    Based on our review of the documentation, we concluded that only $600,000 is applicable
    to the Department of the Interior and that the remaining $1.2 million is applicable to
    programs funded by the Department of Health and Human Services.

            - Regarding other overpayments to the general fund, the Nation stated:

             Our research shows no apparent reason for the amount of the transfers
             listed above [six transfers totaling approximately $3.2 million]. We
             prepared a graphic representation of all transfers for the period. This
             graph shows that subsequent transfers, after each of those listed, were
             adjusted for the overpayments.

    As identified in the response, the unsupported transfers indicate that Federal funds were used
    to supplement general fund operations.

            - Regarding a transfer to the general fund of $2,309,240 which we reported resulted
    in an overpayment to the general fund of $850,000, the Nation stated, “The entitlement was
    the payment for an invoice to BIA [Bureau of Indian Affairs] for the Sequoyah High School
    Construction activity.” However, we noted that the Nation did not substantiate that project
    costs of more that $1.45 million had been incurred at the time the $2.3 million was
    transferred, which resulted in the reported $850,000 overpayment.

            - Regarding a transfer to the general fund of $1,064,837 which we reported resulted
    in an overpayment to the general fund of $809,485, the Nation stated:

             The transfer was payment for an invoice to BIA [Bureau of Indian Affairs]
             for the Roads activity. Again the transfer was the result of a decision
             made with no apparent knowledge of the interfund payables/receivables
             balance. In was determined, incorrectly, that the transaction was made
             without affecting those balances. Further review shows that the
             transaction was done in accordance with established procedure. We
             provide in Attachment E that the balance was properly affected but on the
             wrong cost center. A copy of the correcting entry . . . corrects this
             discrepancy.

    Notwithstanding the adjustment to record the proper cost center, we believe that the
    statement “the transaction was done in accordance with established procedures” but resulted
    in a charge to the wrong cost center indicates a weakness in the Nation’s accounting system
    during fiscal year 1997.



                                                 16
Regarding the general fund deficit, the Nation stated:

         Throughout the history of the Cherokee Nation, the General Operating
         Fund has sustained enterprise fund losses, program cost overruns,
         unreimbursed costs and unbudgeted expenditures with inadequate cash
         resources. The result is that no matter what the policy, program
         drawdowns are constantly deposited into an account that is void of cash.

We do not dispute the statements on the condition of the general fund. However, we believe
that the deficits in the general fund resulted in the transfer and use of Federal funds for
general fund/non-Federal activities. Regarding the proper use of Federal funds advanced to
tribal organizations under the provisions of the Indian Self-Determination and Education
Assistance Act, the Associate Solicitors for the Division of General Law and for the Division
of Indian Law, U.S. Department of the Interior, on February 4, 1998, stated:

         The “ISDEAA” [Indian Self-Determination and Education Assistance Act]
         authorizes the expenditure of Federal funds transferred under ISDEAA
         contracts and annual funding agreements only for the Federal programs
         covered by those contracts and annual funding agreements, and not for
         other tribal programs that are not authorized by the ISDEAA. . . .
         Accordingly, such Federal funds should not be transferred to tribal
         accounts, lent to such tribal accounts, or expended for programs not
         authorized by the above mentioned laws.

Financial Management System

       Nation Response. The Nation stated that it is “currently engaged in or has recently
completed several initiatives to strengthen its financial management system.” According to
the response, these initiatives consist of implementing the following: a financial
improvement plan, a comprehensive staffing plan, its internal accounting systems and cash
flow procedures, and a business planning process.

       Office of Inspector General Reply. Our report (page 10) recognizes the financial
improvement plan and we believe that completion of all planned activities will improve the
Nation’s financial management.

Recommendations

       Nation Response. The Nation stated that it had addressed Recommendation 1 by
issuing an interim policy and procedure on the procurement of attorney contracts and
Recommendations 2 through 6 through “the Self-Governance Annual Funding Agreement
(AFA) negotiated between the Cherokee Nation and the Department of the Interior for Fiscal
Year 1999.

      Office of Inspector General Reply. The status of the recommendations is in
Appendix 4.

                                             17
I



    Since the report’s recommendations are considered resolved, no further response to the
    Office of Inspector General is required (see Appendix 4).

    The legislation, as amended, creating the Office of Inspector General requires semiannual
    reporting to the Congress on all audit reports issued, actions taken to implement audit
    recommendations, and identification of each significant recommendation on which corrective
    action has not been taken.

    We appreciate the assistance of Office of Self-Governance and Cherokee Nation personnel
    in the conduct of our audit.




                                               18
                                              APPENDIX 1

            CLASSIFICATION OF MONETARY AMOUNTS

                   Finding                 Questioned Costs

Program Funds Used for Litigation              $88,000




                                    19
I                                                                                        APPENDIX 2
                                                                                         Page 1 of 10



                       United States Department of the Interior
                                         OFFICE OF THE SECRETARY
                                             Washington, D.C. 20240
                                              SEP 30 1998


    Memorandum

    To:             Assistant Inspector General for Audits

    From:           Assistant Secretary - Indian

    Subject:        Draft Survey Report, “Legal
                    Oklahoma,” (Assignment No. W-SP-B&003-98-R)

    The draft report, issued on September 9, 1998, identified a number of problems with respect to
    financial management and internal control processes of the Cherokee Nation of Oklahoma
    Nation). We anticipate that the Principal Chief of the Nation and members of the Tribal Council
    will provide comments on the report as to actions which have been taken and those planned for
    future implementation which are designed to correct the reported deficiencies.

    The report contains six recommendations directed to Indian Affairs:

    1.      Require the Cherokee Nation to provide assurance that policies and procedures have been
            implemented to ensure that legal services expenditures are not incurred or paid without
            having an approved contract, are not paid without adequate supporting docum?entation,
            are paid within the terms of established contracts, and do not exceed Tribal Council-
            approved appropriations and that Federal program funds are used only for supported
            expenditures incurred in accordance with approved funding agreements or as otherwise
            authorized by legislation.

    Response:      Attachment 1 is a copy of the Nation’s updated policies and procedures for
                   approval and payment of legal services expenditures. We consider this finding to
                   be resolved and implemented.

    2.      Require the Nation to submit audited financial statements or fiscal year 1997 which
            accurately present the source and use of all Federal funds received by the Nation during
            the year.

    3.      Require the Nation to submit interim financial reports which account for the use
            (including amounts held in qualifying deposits or investments) of all Self-governance
            funds received from the Department of the Interior in fiscal year 1998.




                                                        20
                                                                                      APPENDIX 2
                                                                                      Page 2 of 10


4.     Require the Nation to repay to the Department of the Interior any Department funds spent
       for purposes other than those authorized by the terms of the applicable funding
       agreements.

5.     Require the Nation to present a report from its auditing firm stating that a new accounting
       system, meeting all applicable requirements for control of Federal funds, has been
       installed, is functioning properly, and produces accurate and timely financial status
      reports, and that the Nation has implemented an adequate system of internal controls.

6.     Consider deferring action on the fiscal year 1999 funding agreement with the Nation or
       taking other actions to ensure that Departmental funds are used only for authorized
       purposes until the Nation complies with Recommendations 1-5.

Response:     Attachment 2 is a copy of the language we propose adding to the Nation’s Annual
              Funding Agreement for fiscal year 1999. We believe that it meets the intent of the
              remaining recommendations. There is an issue with respect to that portion of
              Recommendation 5 having to do with implementation of’an adequate system of
              internal controls.” It is our view that such a finding from an audit firm could only   .
              be’made following an audit.

              From the Single Audit submitted by the Nation for fiscal year 1996 and from the
              results of the OIG survey report, it appears that a number of internal control
              deficiencies existed in fiscal years 1996 - 1998. Therefore, an audit report on the
              adequacy of internal control will be made in conjunction with the Single Audit
              covering fiscal year 1999.

              We believe that the stipulations proposed to be included in the AFA resolve the
              last five recommendations. We will provide a copy of the AFA once it has been
              signed, which we believe will be sufficient to consider these recommendations as
              being implemented.




Attachments

CC: Cherokee Nation of Oklahoma




                                                  21
I
                                                                                                  APPENDIX 2
                                                                                 Attachment 1     Page 3 of 10




                                                CHEROKEE NATION
                                             Interim Policy and Procedure

     POLICY CHAPT=               Procurement and Contract        .CHAPTER   #:             1
                                 Management
     SUBJECT:                ’   Attorney Contracts              SECTION-SUBSECTION: B-l
     EFFECTWE DATE:              June 5, 1998                    SUPERSEDES
                                                                 MATERIALDATED:
     APPROVED BY:                                                                          June 5, 1998




    To facilitate access to legal counsel for consuhation on governmental affairs, program issues, or

    for tribal litigation.




    Legal Review, Opinions: It is the policy of the Cherokee Nation (Nation) that access to legal counsel

    must be approved by the Executive Director who administers the affected Program or Depanment

    requiring legal guidance. All services for outside legal counsel require a duly executed contract

    covering the period for which the services are to be rendered. Fees for such services will be the

    responsibility of the requesting Program or Department.

    Litigation: Any outside attorney services involving litigation will require a separate contract and

    notficatjon of the Tribal Council. ‘Again, the Executive Director of the Program/Department

    involved in litigation must initiate the proposed contract. The requesting Program or Department

    will be responsible for keeping the Administration and Tribal Council. apprised on a regular basis


                                                      Page 5 of 12
                                                            22
                                                                                       APPENDIX 2
                                                                                       Page 4 of .lO



of attorney projects involving litigation.

Mandatory documentation for attorney contracts will include name of all parties to the contract,

length of duration for the contract, scope of work, billable rates, compensation which should not

exceed a sum certain amount, duties to be performed, repons to be submitted to the Nation, contact

person for the Nation, Assurances of Good Professional Standing, Professional liability Insurance,

and termination or cancellation provision for the contract. No part of this policy applies to services

provided by the     following attorneys:

       attorneys providing legal services as salaried employees of the Law and Justice Department,

       Indian Child Welfare and other departments of the Nation;

       the General Counsel of the Nation;

       the justices, judges or clerks of the Nation district court or Judicial Appeals Tribunal; and

       court-appointed attorneys whose salaries are paid from the court’s budget;

       attorneys hired by the members of the Tribal Council or the Council as a whole, whose

       contracts shall be governed by Resolution No. 25-97 adopted on May 12, 1997; and

       at this time, attorneys hired by the Judicial Appeals Tribunal.


                                               rocem

       Request for Legal Services (RFLS)

       1.      RFU will be utilized for all requests for outside attorney services.

       2.      The RFU will contain, at a minimum:

                         Requesting Department;
               ;:        Contact Person for the contract;
                         Funding source:
               ::        Fees per hour;


                                             Page 6 of 12
                                                    23
                                                                                   APPENDIX 2
                                                                                   Page 5 of 10




            e.      Total estimated cost for each budget year as well as for the life of the
                    contract/project;
            f.      Cost centers and amounts budgeted to fund the contract;
             g-     Contract begin/end dates;
            h.      Type of project (consulting or Iitigation);
            I.      Justification of attorney selection; and
            j-      Brief description of scope of work to be performed.

      3.    Indian Preference, in accordance with the Tribal Employment Rights Ordinance
            (TERO) will be applicable to all requests for legal services.

      4.    No other Procurement Procedure will be applicable to attorney contracts unless
            specifically incorporated into this policy and procedure.

B.    Budget Process

      1.    Attorney fees must be budgeted in conjunction with the Administration’s annual
            budget request, or through budgets developed for specific grants

      2.    Cost Centers and amounts budgeted for Attorney fees associated with a Contract
            must be identified on the RFLS.

      3.    Attorney Contracts for which amounts have not been budgeted must be budgeted
            either through modification to a grant budget, request for modification to other
            Tribal budgets, or by additional Appropriation Acts of the Tribal Council prior to
            contract execution.

      4.    Unless a special appropriation is enacted by the U.S. Congress, no federal funds
            will be used for litigation against the U.S. Government.

c..   Approval Process

      I.    A RFLS is prepared by the requesting Program or Department and is forwarded to
            the Law & Justice Department.

      2.    Law & Justice delineates on the RFLS whether any of the services can be
            performed in-house, considering the expertise needed to perform the services as
            well as cunent workload, and returns the request to the requesting.Department.        *.
            Law & Justice ‘will consult with the requesting Department to make a
            detemiination whether the costs are appropriate for the services to be performed
            under the contract.




                                        Page 7 of 12
                                                 24
I
                                                                                       APPENDIX 2
                                                                                       Page 6 of 10




         3.    Lf the Law & Justice Department responds that some or all of the legal services
               requested can be performed in-house, the requesting Department must either:

               a.      reduce the scope of work for the outside attorney request, according to the
                       work that can be performed in-house; or

               b.     justify to Law & Justice Department why an outside firm must conduct all
                      of the work to be anticipated.

         4.    The requesting Department forwards the RFLS to the respective Executive
               Director for signature approving the request and certifying that funds are
               available.

         5.    If the requested services involve litigation, the Tribai Council must be informed of
               any work to be performed involving litigation.

    D.   Document Development

         1.   A RFLS for an attorney contract or amendment must be approved by the
              Executive Director, or designee before a contract may be executed.

         L-
         3    Upon approval of the RFLS by the Executive Director or designee, the document
              is drafted, either by the subject Attorney, the requesting Department or by the Law
              & Justice Department. For litigation services, a separate contract must be
              executed for each litigation project.

         3.   If the document is drafted by any party other than the Law & Justice Department,
              then the contract or amendment must be forwarded to the Law & Justice
              Department for review.

         4.   Contract Contents:

              a.      Minimum items to be addressed in the contract - Parties’ names/addresses;
                      billable rates; length of duration for the contract; total amount of contract
                      not to exceed; Contact Person for the Nation; scope of work and duties to
                      be performed; reports to be submitted to the Nation; detailed invoices
                      required for payment; Assurances of Good Professional Standing;               ’
                      Professional Liability Insurance; amendment clause; termination or
                      cancellation provision; any other standard clauses the Law & Justice
                      Department may recommend; and signature of both parties.

              b.     No waiver of sovereign immunity of the Nation will be approved without a
                     resolution of the Tribal Council.


                                          Page 8 of 12
                                                   25
                                                                                 APPENDIX 2
                                                                                 Page 7 of 10




      5.    Amendments will contain at a minimum: Name of the Attorney under contract;
            beginning date of the contract; general purpose of the contract; purpose of the
            amendment; specific terms to be amended; and signature of both parties.

     6.     A minimum of two originals of the contract or amendment, a cover memorandum
            from the Executive Director of the requesting Department, and a copy of the
            approved RFLS, must be forwarded to the Principal Chief for signature. The
            Principal Chief or designee must sign all such contracts in order for them to be
            valid.

     7.    The requesting Department is responsible for obtaining necessary signatures.

     8.    Upon signature by both parties, one original of the contract or amendment will be
           forwarded to the subject Attorney; the second original document must be
           forwarded to Law & Justice.

     9.    Any copies of the contract or subsequent amendments that are distributed must be
           requested from Law & Justice, distributed under a Transmittal Form identifying
           the copy as an official copy. Distribution and access to records will be conducted
           in accordance with Cherokee Nation Executive Branch Administrative Policies,
           Chapter 8, Records Maintenance.

E.   Payment Process

     1.    The Contact Person listed on the approved RF’LS is responsible for initiating all
           payment action, including identifying the accounts and amounts to be charged
           each account, assembling all check requests associated with the invoice, and
           insuring that invoices are sufficiently detailed.

     2.    Once check requests are prepared, the requesting Department is responsible for
           completing an internal review and approval of items to be paid for appropriateness
           and accuracy, as well as funds availability and proper source of funds (for
           example, that federal funds are not used for certain types of litigation). A
           complete package per invoice is submitted by the requesting Department to Law
           & Justice.

     3.    Law & Justice reviews the payment documents to insure compliance with the
           attorney contract; and to insure invoices are sufficiently detailed for payment.    I


     4.    Law & Justice will keep a copy of the payment documents for the contract file and
           forward them to Accounting for processing. (Requests for payment that are
           submitted directly to Accounting without a review from Law & Justice will not be
           processed.)


                                      Page 9 of 12
                                              26
I
                                                                                      APPENDIX 2
                                                                                      Page 8 of 10




         5.    Law & Justice will not forward invoices requested for payment to Accounting if:

               a.      the contract file is incomplete (i.e., no original contract, no RFLS, etc.); or

                b.     a required report is more than one (I) month overdue.

               In this case, Law & Justice will return the payment request back to the Contact
               Person with a memorandum describing the reasons that payment was not
               processed.

    F.   Contract Administration

         1.    Law & Justice will maintain a Contract File for each attorney contract, which shall
               include at a minimum:

               a.     the original, executed contract;

               b.     any original, executed amendments to the contract, if applicable;

               C.     a copy of each invoice and associated check requests;

               d.     a copy of the approved WLS associated with the contract: and

               e.     copies of all reports associated with the contract.

         2.    The requesting Department will be responsible for budget management associated
               with attorney contracts, and for maintaining information on each attorney contract
               regarding total fees paid by the Nation and the sources of funds utilized.

         3.    Law & Justice (Contracts Department) will be responsible for monitoring attorney
               contracts, specifically in regard to the following:

               a.     to insure the total contract amount is not exceeded;

               b.     to insure contracts are renewed timely as needed;

               C.     to monitor overall compliance with the contract;

               d.     to insure compliance with Attorney Contract policy and procedure; and

               e.     to insure compliance with applicable Tribal and Federal law.




                                          Page 10 of 12
                                                  27
I
                                                                                   APPENDIX 2
                                                                                   Page 9 of 10




         4.    Any contract amendments requested must be processed according to the Approval
               and Document Development procedures outlined above.

    G.   Reports Required

          I.   The Contact Person. for each attorney contract is responsible for submitting a        .
               monthly narrative report.

         2.    The first page of each monthly report will identify the name of the attorney: the
               period the report covers; the date submitted; and the person submitting the report.

         3.    The monthly report will consist of a description of attorney activities and
               accomplishments on behalf of the Nation in the reporting period. The monthly
               report will also describe expenditures for the subject attorney contract during the
               reporting period.

         4.    The monthly report shall be submitted to the Principal Chief, and to the Tribal
               Council with copies to Tribal General Counsel, Law & Justice and Grants
               Administration.

         5.    Failure to submit required reports will result in delayed payment requests.




                                         Page 11 of 12
                                                  28
                                                                              Attachment 2
                                                                                     APPENDIX 2
                                                                                     Page 10 of 10



                                          SECTION EIGHT
                                            PAYMENT

For FY 1999, until the Nation complies with the conditions outlined below, the Office of Self-
Governance (OSG) will advance monthly payments to the Nation on or before the first business
day of each month in the amount of l/12 of the negotiated amount available, or other amount
mutually agreed to, after adjustments for Congressional action have been applied. In the event the
Nation faces specific program requirements which would justify a payment in excess of the
amount otherwise due, the Nation shall provide a justification by the 15th of the month prior to
the month in question.
The Nation will provide an annual budget to the OSG for each program covered by the FY 1999
AFA.

The Nation will provide a monthly report of expenditures for each program covered by the FY
 1999 AFA no later than the 27th of each succeeding month. If reports are not submitted on a
timely basis or if, in the opinion of the OSG there are questioned items or other irregularities,
then the OSG will furnish the Nation with three business days to address such concerns. If the
Nation fails to resolve such concerns, then the OSG will reduce the next monthly payment by the
amount in question, with such amount to be reserved until all issues are resolved.

This payment process will continue until the Nation fulfills the following:

(A)    submits audited financial statements for FY 1997 which accurately present the source and
       use of all Federal funds received by the Nation in FY 1997 and carried over as deferred
       revenue from FY 1996;

(B)    submits unaudited financial statements which account for the source and use of all FY
       1998 Self-Governance funds (including amounts held in qualifying deposits or
       investments);

CC)    repays to the Federal government or otherwise resolves to the satisfaction of the OSG any
       funds spent for purposes other than those authorized by the terms of the applicable AFA
       which are identified by the OIG report entitled “Legal Services Costs Incurred by the
       Cherokee Nation of Oklahoma” and the Nation’s Single Audit report for FY 1997.

CD)    submits an independent assessment report from an impartial accounting firm stating that
       the Nation has implemented a functioning accounting system for the purposes of: (1)
       meeting applicable requirements for accounting and monitoring Federal funds; and (2)
       producing accurate and timely financial reports.

Upon meeting these conditions, the balance of this AFA shall be awarded to the Nation
consistent with the negotiated amount following adjustments for Congressional action, less all
funds that already have been awarded to the Nation. The Nation shall not be held accountable for
interest earned on such funds, pending their disbursement by the Nation.

                                                  29
                                                                                                 Appendix 3
                                                                                                 Page 1 of 9
                                                                                      Joe Byrd
                                                                                      K8 h&XII
                   CHEROKEE NATION                                                    Principal Chief

                                 P.O. Box 948                                         James “Garland” Eagle
                          Tahlequah, OK 74465-0948                                    bH DQ!%+P
                                 918-456-0671                                         Deputy Principal Chief




October 2, 1998


                         VIA FACSIMILE AND OVERNIGHT MAIL




Linda Richardson, Director
Office of Audit and Evaluation
MS 2559-MB
1849 “C” Street, NW
Washington, D.C. 20240

Dear Ms. Richardson:

Enclosed is the Nation’s response and comments to the Draft Survey Report developed by the
Department of the Interior (DOI), Office of Inspector General, dated September 9, 1998. These
comments are respectfully submitted in accordance with your letter of September 18, 1998.

We have carefully reviewed the contents of the draft report, and have thoughtfully prepared
responses to address the issues brought forward in the report. Our response contains comments
from the operations perspective of the tribal administration, as well as a policy viewpoint offered
by some members of the Tribal Council.

We trust these responses and comments will be considered in the development of the final
Survey Report by the DOI, and in any subsequent decision making processes. Please do not
hesitate to contact Charles Head, Executive Director of Finance & Administration, extension
2409, should you have questions or require additional information concerning this document.




Enclosure




                                                    30
I
                                                                                                  APPENDIX 3
                                                                                                  Page 2 of 9



                                      CHEROKEE NATION
                              WRITTEN RESPONSE AND COMMENTS
                                    DRAFT SURVEY REPORT
                      DEVELOPED BY THE U.S. DEPARTMENT OF THE INTERIOR
                                OFFICE OF INSPECTOR GENERAL

         Report Title: Legal Services Costs Incurred by the Cherokee Nation of Oklahoma
         Report Number: W-SP-BLA-003-98-R

                Introduction: Following are the comments and responses from the Cherokee Nation to the
        Department of the Interior Office of Inspector General (DOI-OIG) Draft Survey Report, dated
        September 9, 1998 and subsequent letter from the DO1 Office of Audit and Evaluation, dated
        September 18, 1998. Part 1 describes the responses from an operational viewpoint by the tribal
        administration, and Part 2 contains the responses from a policy viewpoint that have been provided
        by various members of the Tribal Council.

                                                       Part 1
        I.      Legal Services Payments

                The Department of the Interior Office of Inspector General (DOI-OIG) conducted an exit
        conference with representatives of the Cherokee Nation at the conclusion of the Survey. One of the
        items noted in this conference was the absence of adequate policies and procedures dealing with the
        acquisition and management of contracts for attorney services. The Nation, in an effort to be
        proactive, rather than waiting until the draft report was printed, developed and implemented an
        hterjm Policy and Procedure for Attorney Contracts on June 5, 1998. A copy of this Administrative
        Policy and Procedure is included in “Attachment A” to this report. This policy requires a duly
        executed contract to acquire any services for outside legal counsel, which is valid for the period for
        which the services are to be rendered. It also requires that all attorney services involving litigation
        are to be included under separate contract and notification to the Tribal Council. This will greatly
        improve the ability of the Nation to track those activities and services provided by outside attorneys
        for the purposes of litigation. Other fundamental elements of this policy and procedure are as
        follows:

        b      Minimum contract clauses and documentation for attorney contracts;
        b      A Request for Legal Services (m) for initial approval for acquisition of attorney services,
               which includes estimated cost for each budget year, cost for the entire project, and
               demonstration to the approving official that funds are budgeted to finance the contract;
    c   b      A Budget Process for attorney contracts, clarifying that funds must be budgeted specifically
               for attorney fees prior to contract execution, and clarifying the use of federal funds for
               litigation;
        b      Delineates the approval process for the RFLS and the final contract documents;
        b      Provides for in-house legal assistance where feasible;

        Response to DOI-OIG Draft Survey Report               Page 1                          October 2,199s
        [NOTE: PART 2 OF THE INFORMATION CITED IN PARAGRAPH 1 ABOVE AND ALL ATTACHMENTS
        CITED IN THIS RESPONSE HAVE NOT BEEN INCLUDED BY THE OFFICE OF INSPECTOR GENERAL.]
                                                              31
                                                                                           APPENDIX 3
                                                                                           Page 3 of 9



b       Describes what parties are responsible for document development and review (including
        legal review), as well as transmittal of documents;
b       Contains a detailed payment process to insure that sufficient detail is included with check
        requests, that the correct accounts are billed, and that payments are not made without a
        current attorney contract and compliance with the contract is maintained;
b       Sets out a monthly reporting process whereby attorney activities are reported by the contact
        person on staff to the Principal Chief, Tribal Council, Tribal General Counsel, Law & Justice
        and Grants Administration;
b       Describes responsibilities for specific areas of contract administration, which will be the
        Contracts Office (currently located in Law & Justice Department). The Law & Justice
        Department is now responsible for maintaining the Contract File, copies of all check
        requests, copies of reports, and for compliance monitoring.

        This Interim Policy and Procedure was implemented effective June 5, 1998, and was
transmitted to all staff possessing a copy of the Cherokee Nation Administrative Policies. It is
anticipated that once the policy has been implemented for a sufficient period of time and tested,
recommended improvements to the policy will be made before it becomes a permanent policy.

        On page 6, the Draft Survey Report describes invoices paid for legal services for which there
was no contract. For that period of time, the Nation did have a letter of engagement (“Attachment
  B“) under which the firm was paid for their services until a contract was executed. In the first
paragraph of page 7, the Draft Report describes 14 invoices that were paid in excess of agreed billing
rates, which involved the same law firm. A letter from the subject legal fir-r-n, located in “Attachment
B“ clarifies that the rate appearing in the contract should have been $325 per hour, not $300 per
hour, and that it was billed at $325 per hour by the firm. The letter goes further to state that the $300
per hour rate was included in the contract by mistake. The firm agreed in this letter that the rate of
$300 would be honored by their firm, since it was a mistake, and that future billing would be
adjusted as a result. The letter also describes significant reductions in fees made by the firm over
the term of the contract.

        On page 8 of the Draft Survey, the DOI-OIG stated that the Cherokee Nation incorrectly
charged the DO1 for legal services of $88,000 related to the Nation’s Arkansas Riverbed litigation
against the Federal Government. This amount was also listed as the only questioned cost on page
13 of the report. The Nation agreesto set aside the funding from the General Fund, adjust the
expenditure to the General Fund and refund that @mount to the Cherokee DO1 Self-
Governance fund.

       Note: The Tribal administration has forwarded the issue to our Law & Justice Department,
who will contact the DOI-OIG to obtain the justification for their determination that the $88,000 in
question was expended to pay for litigation services by the attorney firm against the Federal
Government, and to conduct the requisite research to enable the Nation to ascertain whether there
is concurrence with that determination.



Response to DOI-OIG Draft   Survey Report              Page 2                           October 2,1998


                                                      32
                                                                                         APPENDIX 3
                                                                                         Page 4 of 9



II.     Transfers of Federal Program Funds

        The Nation concurs with the transfers and the amounts listed for each of the transactions on
page 9. However, the OIG Draft Survey Report is not reflective of supplemental information
provided by the Nation on July 24, 1998 addressing each of these transactions. While we
acknowledge that in some cases the amount transferred did not exactly match the amount of
expenditures attributable to the DO1 self-governance compact, in all cases the amounts were
reconciled and subsequent transfers to the General Fund were adjusted as necessary so that the total
reimbursement for the year equal the amount of DO&eligible expenditures. A copy of that
supplemental information is provided for reference in “Attachment C.“

        Transfers noted in the Draft Survey Report occurring on March 17, and October 9, 1997
apply to this category. While funds were initially-transferred to the general fund in excess of needs,
expenditures attributable to the program were subsequently applied. The transfer referenced on page
9 on November 19, 1998 had originally been posted to the wrong cost center. This transaction has
been corrected, and the documentation to substantiate the correction is included in “Attachment
C.”

       It has been noted in the DO1 Draft Survey Report that each of the transfers occurred at a time
when the Nation’s general fund was in a deficit cash situation. This was not an unusual situation for
the Nation, as “Attachment C“ describes. In his cover letter, the Nation’s Director of Accounting
explained that program draw downs, because they are a reimbursement to the general fund, were
constantly deposited into an account that is void of cash. However, for reasons described in
Attachment C, the Nation no longer incurs a deficit in the general fund.

III.    Financial Management System

         The Nation is currently engaged in or has recently completed several initiatives to strengthen
its financial management system. This has involved several projects and the participation of several
departments within the tribal administration. The first project, which is mentioned in the OIG Draft
Survey Report, is the Financial Improvement Plan, which is a project to improve the computerized
accounting system by bringing the American FundWare system to a functional status. A second,
concurrent initiative was a Comprehensive Staffing Plan, which focused on assembling and
acquiring qualified key staff to strengthen the Nation’s financial management capability. Third, the
Nation has improved its Internal Accounting Systems and Cash Flow Procedures, which is
crucial to address the issues outlined in the DO1 Draft Survey Report. Finally, the Nation is in the
beginning implementation steps of a Business Planning Process, to develop a one-year operating
plan for the Nation accompanied by the FY 1999 budget request, which will allow the Nation the
ability to plan for the future.

       Financial Improvement Plan. In 1994, the Nation found it had outgrown the previous
accounting system (Texas Instruments System). The system was incapable of producing timely
interim or year-end financial information, thereby significantly impacting management’s ability to


Response to DOI-OIG Draft Survey Report               Page 3                          October 2,1998


                                                     33
                                                                                      APPENDIX 3
                                                                                      P a g e 5 of 9



make financial decisions or prepare reliable financial reports. As summarized in the draft audit
report, in 1994 the Nation acquired American FundWare (AFW) to replace the TI system. The
conversion in FY-97 from TI to AFW was very difficult and, in many cases, data did not transfer
well from TI to AFW. These problems with converting to AFW continued to prevent the Nation
from producing financial reports. Further, a portion of FY-97 was completed utilizing primarily the
TI system, and for the remainder of the fiscal year the AFVV system was used. The TI balances had
not transferred into the AFW system; therefore, FY-97 could not be closed timely.

         The Nation, as described accurately in the draft report, obtained the services of Del&e &
Touche to complete a financial improvement plan for the Nation and correct the problems
encountered by the conversion to AFW. This was envisioned to be a joint project between the
Nation Accounting and Information Systems staff, Deloitte & Touche, and consultants from
American FundWare. The project was a major undertaking, and the commitment of the Cherokee
Nation Executive and Legislative Branches of government was crucial. Evidence of the commitment
of the Nation to successfully complete the endeavor was the ultimate development of the Financial
Improvement Plan, its implementation, and the Tribal Council appropriation of $2,000,000 for the
project.

        Note: The Cherokee Nation Executive and Legislative Branches of government recognized
the flaws and weaknesses in the accounting system, that were confirmed under previous independent
annual audits, and acted on a plan to correct those weaknesses in January, 1998, well before the
arrival of the DOI-OIG to review Cherokee Nation legal costs. Again, this is evidence of the
commitment and sincere effort that is underway and nearly complete to regain a fully operational
financial accounting system.

        Immediate concerns in January 1998 were closing payroll records; generating W-2 and 1099
forms for calendar year 1997; closing FY-97 accounting records; and, fully implementing AFW and
correcting any problems that have occurred during implementation. A copy of the financial
improvement plan approved by the Tribal Council and implemented by the Tribal Administration
is included herein for reference as “Attachment “D.” As part of the objective to fully implement
AF’W, the consultant (Deloitte & Touche) was tasked with:

b      identifying   gaps between the current implementation status and what would be required and
       expected of the Nation’s accounting system;
b      developing a design to address these gaps;
b      building the system from the design plan and testing those activities;
b      developing revised workflows and desk procedures based on the new design;
b      obtaining feedback and finalizing desk procedures;
b      converting or transferring TX data to AFW; and
b      identifying staff training needs and conduct user training.

       The most recent report to the Executive and Finance Committee of the Tribal Council, dated
August 27, 1998, describes the accomplishments of the financial improvement plan to date and the


Response to DOI-OIG Draft Survey Report             Page 4                         October 2,1998


                                                   34
                                                                                                 APPENDIX 3
                                                                                                 Page 6 of 9




        items that remain to be completed. (Please see “Attachment E”.) Page 10 of this report details the
        major activities under each objective of the financial management plan, and identifies the status of
        each. Most of the activities are completed, or well underway toward completion. The entire
        financial improvement plan is also projected to be fully accomplished by the end of the first quarter
        of FY 1999.

                Once the entire financial improvement plan is complete, the Nation will: produce timely,
    I   accurate financial reports; compare actual expenditures to budgeted expenditures; and, monitor and
        analyze budgets. Improvements will be made to internal controls, source documentation and
        procedures to insure that applicable cost principIes and regulations are followed.

                Comprehensive Staffing Plan. The Nation has undertaken a concerted effort to assemble the
        team of individuals needed to insure success of the financial improvement plan and to increase the
        Nation’s capacity for strong management of the new financial system. Three of these individuals
        are existing staff that have been reassigned from other areas; the remainder are new hires that have
        been carefully selected for their experience and qualifications. Three of the new hires who are
        employed in the key positions of Accounting Director, Manager of Budgets and Director of Internal
        Audit and Grants Management are Certified Public Accountants.

                                         Financial Management Team
                                                  Chief of Staff
                               Executive Director of Finance and Administration
                                               Interim Controller
                                         Director of Accounting (CPA)
         Director of Internal Audit and Grants Management.(CPA, Certified Internal Auditor, Certified
                                           Management Accountant)
                                Manager of Budgets and Special Projects (CPA)
                               Special Assistant for Budgets and Special Projects
                                        Director of Information Systems
                                         Self-Governance Coordinator

                This staffing team is integral to the effective management of the improved system, and will
I

        contribute greatly toward the implementation of the other three components discussed in this section.
i

                Internal Accounting Svstems and Cash Flow Procedures; A project that the Nation is
        currently pursuing in concert with the Financial Improvement Plan is the development and
        implementation’ of improved cash management procedures, including improved processes for draw
        down of federal funds. An attribute is being built into the AFW system to serve as a tickIer and print
        a weekly report to the Accounting Director, who is responsible for insuring that funding is not drawn
        in excess of needs. In turn, the Accounting Director will be responsible for preparing a report
        monthly to the Nation’s Controller, the Executive Director of Finance & Administration, and the
        Tribal Council Executive and Finance Committee on the status of cash for the subject month. This
        will provide the oversight needed to insure that appropriate actions are taken to utilize the “cash on
        hand” information that will be generated by AFW. The Nation has also acquired the services of Mr.

        Response to DOI-OIG Draft Survey Report               Page 5                          October 2,1998


                                                            35
I
                                                                                               APPENDIX 3
                                                                                               Page 7 of 9



        Charles Monroe, a Tulsa, Oklahoma Certified Public Accountant, to assist the Nation in the revision
        and development of accounting procedures. Priority issues include draw downs, disbursements and
        bank reconciliations. Procedures to address these issues will be substantially completed by the end
        of October, 1998.

                Another effort that contributes to the improvement of internal controls is the implementation
        of the Internal Audit 8r Compliance department of the Nation. The Internal Audit & Compliance
        department has been budgeted with a staffing level of three (3) full-time staff. The major objectives
        of the department have been identified as follows:

        1.      To address and/or follow up on internal control findings from external financial and program
                audits.

        2.     To understand, assess, and test compliance with internal controls, applicable laws and
               regulations.

        3.     Assist with the documentation, development ‘and/or strengthening of internal controls.

               Full implementation of this department is expected in early FY-99. It is anticipated that this
        department will provide an added measure of assurance to the Tribal Administration that the newly
        implemented financial accounting system is functioning properly.

                 Business Planning: Process. The Nation has initiated a process to develop a one-year
        comprehensive business plan for the Nation’s operations. A series of workshops and working
        meetings are being held, the first one having been held September 25, 1998 with all managers and
        directors. Goals and objectives will be developed for each department or program, in accordance
        with the overall mission statement of the tribe. Once goaIs and objectives have been developed,
        budgets to accomplish this work plan will be developed. The goals and objectives developed by
        each department or program of the Nation will be consolidated to comprise the master plan for
        operations. The budgets developed corresponding to these work plans will be formatted into the
        administration’s budget request to the Tribal Council for FY 1999. This plan is being developed for
        one year, with the intent to develop long-range strategic planning as a future project. It is
        encouraging that the Nation is not only aggressively addressing operational problems and barriers,
        but js also concentrating on valuable planning for the future.

        IV.    Recommendations

                In the Draft Survey Report, the DOI-OIG made six (6) recommendations to the Assistant
        Secretary - Indian Affairs as requirements of the Director of the Office of Self-Governance. These
        six (6) recommendations are outlined on page 11 of the report. Item number 1 has been addressed
        jn section I. of this document, and in “Attachment A.” Items number 2 through 6 have been
        addressed by way of an agreement between the Assistant Secretary - Indian Affairs and the Cherokee
        Nation Principal Chief on September 10, 1998. This agreement will be embodied in the Self-
    ,
        Governance Annual Funding Agreement (AFA) negotiated between the Cherokee Nation and the

        Response to DOI-OIG Draft Survey Report              Page 6 ’                        October 2,1998


                                                            36
I
                                                                                                         APPENDIX 3
                                                                                                         Page 8 of 9



    Department of the Interior for Fiscal Year 1999. “Attachment F” contains the most recent draft of
    the language to be inserted into the AFA as a result. The additional language encompasses
    recommendations 2-6 and the agreement described above. Specifically, the Nation has agreed, as
    part of the AFA, to comply with items 2-5 as a condition of receiving further Federal funding. To
    address item 6, the Nation has agreed to a monthly advance payment process, rather than the lump
    sum advance payment customarily provided to self-governance tribes, until all of the conditjons
    listed in items 2-5 are met. Listed below are each of the recommendations made by the DO1 OIG
    and the action that was taken to resolve and/or address each one.

                 RECOMMENDATION                                                ACTION TAKEN                  .

     1.      Require the Nation to provide assurance that      The Nation has developed and implemented an interim
             policies and procedures have been                 Attorney Contract Policy and Procedure in June, 1998,
             implemented to ensure that legal services         which addresses each of these items. The Policy and
             expenditures are not incurred or paid without     Procedure is anticipated to become permanent in the
             having an approved contract, are not paid         near future. A copy of the Nation’s Attorney Contract
             without adequate supporting documentation,        Policy and Procedure is attached to this package in
             and paid within the terms of established          “Attachment A.”
             contracts, and do not exceed Tribal Council-
             approved appropriations and that Federal
             program funds are used only for supported
             expenditures incurred in accordance with
             approved funding agreements or as otherwise
             authorized by legislation.
     2.      Require the Nation to submit audited financial   This has been agreed to by the Nation as part of the FY
             statements for fiscal year 1997 which            1999 Annual Funding Agreement, as one condition to
             accurately present the source and use of all     receiving future lump sum advance funding. The
             Federal funds received by the Nation during      agreements made related to this Draft Report are
             that year.                                       attached in “Attachment F.“

     3.     Require the Nation to submit interim financial    The Nation has agreed to provide the DOI with
            reports which account for the use (including      unaudited financial reports for FY 1998 in the FY 1999
            amounts held in qualifying deposits or            Annual Funding Agreement, as one of the conditions to
            investments ) of all Self-Governance funds        be restored to a annual lump sum payment schedule.
            received from the Department of the Interior      This is also found in the agreements in “Attachment F.”
            in fiscal year 1998.

     1.     Require the Nation to repay to the Department     The Nation has agreed to repay or otherwise resolve to
            of the Interior any Department funds spent for    the satisfaction of the Office of Self-Governance any
            purposes other than those authorized by the       funds spent for purposes other than those authorized, as
            terms of the applicable funding agreements.       identified in the DO1 OIG Survey Report and the
                                                              Nation’s Single Audit Report for FY 1997 (see
                                                              “Attachment F“).
                                                                  4




    Response to DOI-OIG Draft Survey Report                     Page 7                               October 2,1998



                                                               37
                                                                                                      APPENDIX 4
                                                                                                      Page 9 of 9




  5.     Require the Nation to present a report from its   The Nation has committed in the FY 1999 Annual
         auditing firm stating that a new accounting       Funding Agreement to submit a report from an
         system, meeting all applicable requirements       independent accounting firm pursuant to this
         for control of Federal funds, has been            recommendation (“Attachment F“).
         installed, is functioning properly, and
         produces accurate and timely financial status
         reports, and that the Nation has implemented
         an adequate system of internal controls.

  6.     Consider deferring action on the fiscal year       The Nation and the DO1 have agreed in the FY 1999
         1999 annual funding agreement with the             Annual Funding Agreement to a monthly advance
         Nation or taking other actions to ensure that      payment process, rather than an annual lump sum
         Departmental funds are used only for               advance which is the usual practice for self-governance
         authorized purposes until the Nation complies      tribes. Further, under the terms of the agreement, the
         with Recommendations 1 through 5.                 Nation will submit its annual budget for FY 1999, as
                                                           well as monthly expenditure reports until all other
                                                           conditions are met to restore the Nation to a annual
                                                           lump sum payment process. There are also provisions
                                                           in this agreement for the DOI to monitor these reports
                                                           and withhold payment should there be questioned items
                                                           that are unresolved by the Nation.

      While not legally required to do SO, these concessions were made by the Nation in the FY
1999 Annual Funding Agreement to show the DO1 a good faith effort towards accommodating the
recommendations listed on page 11.

        Summary: In conclusion, the Cherokee Nation views the results of the recent DOI-OIG
Survey as a very serious matter, and has made an effort to convey the measures taken to address the
topics jn this report in a clear and concise manner. In regard to the recommendations listed on page
11 and questioned costs of $88,000, the Nation has either taken action to fulfill the requirements of
the DOI-OIG, or has otherwise addressed the recommendations by commitment, often in legal
documents, of future action.

       in regard to the fund transfers discussed on pages 8-9 of the Draft Report, the Nation wishes
to emphasize that no federal program dollars have been “lost” by transferring them into the general
fund. Where transfers occurred that were in excess of expenditures, future reimbursements were
adjusted to offset any excess amount drawn, resulting in a net excess amount of zero.
                                                                                  Further, the
Nation’s administration has made it a clear directive emphasizing the conditions under which
transfers are to be made, and is currently developing improved cash management procedures to
address the issue.

       These responses and comments are therefore respectfully submitted to the DO1 Office of
Audit and Evaluation for consideration in development of the final Survey Report and in any
subsequent decision making processes.




Response to DOI-OIG Draft Survey Report                     Page 8                               October 2,1998



                                                           38
                                                                   APPENDIX 4


           STATUS OF AUDIT REPORT RECOMMENDATIONS

    Finding/
Recommendation
   Reference             Status                  Action Required


       1          Implemented.    No further action is required.


 2,3,4,5, and 6   Resolved; not   No further response to the Office of Inspector
                  implemented.    General is required. The recommendations
                                  will be referred to the Assistant Secretary for
                                  Policy, Management and Budget for tracking
                                  of implementation.




                                  39
                ILLEGAL OR WASTEFUL ACTMTIES
                    SHOULD BE REPORTED TO
              THE OFFICE OF INSPECTOR GENERAL BY:

Sending written documents to:                                Calling:


                      Within the Continental United States

U. S . Department of the Interior                   Our 24-hour
Office of Inspector General                         Telephone HOTLINE
1849 C Street, N.W.                                 l-800-424-5081 or
Mail Stop 5341                                      (202) 208-5300
Washington, D. C . 20240

                                                    TDD for hearing impaired
                                                    (202) 208-2420 or
                                                    l-800-354-0996


                      Outside the Continental United States

                                          bean R&

U.S. Department of the Interior                     (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 2220 1

                                    North Pacific Rema

U.S. Department of the Interior                     (67 1) 647-605 1
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
I




    Toll Free Numbers:
      l-800-424-5081
     TDD l-800-354-0996

    FI’S/Commercial Numbers:
     (202) 2085300
     TDD (202) 208-2420

     HOTLINE
    1849 C Street, N.W.
    Mail stop 5341
    Washington. D.C. 20240
